         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Management Controls over the
Technology Transfer and
Commercialization Program at the
Idaho National Laboratory




OAS-M-05-07                            June 2005
MANAGEMENT CONTROLS OVER THE TECHNOLOGY TRANSFER
AND COMMERCIALIZATION PROGRAM AT THE IDAHO NATIONAL
LABORATORY



TABLE OF
CONTENTS


       Technology Transfer and Commercialization Program

       Details of Finding                                  1

       Recommendations and Comments                        3


       Appendices

       1. Objective, Scope, and Methodology                5

       2. Prior Audit Reports                              7

       3. Management Comments                              8
Technology Transfer and Commercialization Program

Technology Transfer   Bechtel BWXT Idaho, LLC (Bechtel) did not (a) properly account
Financial Controls    for royalties due from licensing activities, and (b) track technology
                      transfer-related costs to ensure that they did not exceed the
                      contractually-imposed administrative limit.

                                   Royalties Due From Licensing Activities

                      Bechtel did not properly recognize royalty revenues for license
                      agreements in its financial records or clearly justify "forgiving"
                      royalties due. One of the avenues available for the contractor to
                      transfer technology is to license patented Idaho National
                      Laboratory (INL) technology to private companies so it can be
                      further developed and made available for commercial sale. Many
                      of these licenses have a requirement for the licensee to pay a
                      royalty to the INL for use of the patented technology. These fees
                      are frequently a combination of minimum annual royalties and a
                      percentage of the licensee's revenue from sales. However, Bechtel
                      did not record and recognize any royalties due from the license
                      agreements in its financial records. For example, in order to
                      maintain an exclusive license for an INL-developed technology,
                      one licensee owed approximately $25,000 in minimum annual
                      royalties. Yet, Bechtel had not recognized the revenue as a
                      receivable. In fact, neither technology transfer program personnel
                      nor accounting personnel at Bechtel were able to provide a
                      comprehensive list from which the amount of royalties due from
                      licensees could be readily determined.

                      Furthermore, Bechtel had not clearly justified "forgiven" royalty
                      revenues on technology transfer accounts that had been written off.
                      Specifically, from Fiscal Years (FY) 2000 – 2004, Bechtel's
                      technology transfer office had forgiven approximately $680,000 of
                      the $3 million in royalties due without clearly documenting the
                      reasons for these actions. In some cases, Bechtel failed to
                      document that the royalties were forgiven at all. According to
                      management, since the primary purpose of technology transfer was
                      to stimulate the utilization of Federally funded technology rather
                      than for the sites to earn revenue through the collection of
                      royalties, Bechtel often forgave the royalties of licensees that had
                      difficulties in making the required payments.

                                        Administrative Spending Limit

                      Bechtel did not accumulate, report, or monitor technology transfer
                      costs to ensure that such expenditures were within the
                      contractually-imposed administrative limit. Specifically, the
                      Bechtel contract limits the costs associated with technical


Page 1                                                                 Details of Finding
                         assistance, obtaining and assigning intellectual property rights,
                         licensing, and other technology transfer costs to 0.5 percent of the
                         site's research and development budget, unless the contracting
                         officer's prior approval to exceed this limit is granted. However,
                         because Bechtel did not separately track and report on the amount
                         spent for technology transfer activities, they were unable to
                         determine if or when that limit was exceeded.

Internal Controls over   Bechtel did not strengthen its controls to account for royalty
Program                  revenues even though weaknesses were reported by internal
Activities               auditors several years ago. Also, the Idaho Operations Office did
                         not provide adequate oversight to ensure that Bechtel established
                         appropriate financial controls over technology transfer royalties
                         and costs.

                            •   Even though Bechtel management was aware of control
                                weaknesses over royalty revenues, they did not take
                                corrective action. In 2000, Bechtel's internal auditors
                                reported weaknesses in internal controls over royalty
                                collections. Specifically, they found that an adequate
                                accounts receivable process had not been established to
                                track, manage, and report the royalty receivables. As a
                                result, the auditors recommended that the technology
                                transfer and commercialization program implement a
                                billing and accounts receivable process that was consistent
                                with generally accepted accounting principles. Although
                                Bechtel management agreed with the recommendations, the
                                same problems still persisted in 2004.

                            •   The Idaho Operations Office did not ensure that Bechtel
                                corrected previously disclosed weaknesses over royalty
                                collections. In addition, neither the Department's
                                technology transfer program officer nor the contracting
                                officer were aware of the clause that established the
                                administrative limit on technology transfer costs. Thus, the
                                Department did not have systems in place to monitor
                                technology transfer expenditures to ensure that they were
                                within the administrative ceiling. In fact, when we initiated
                                the audit, Idaho Operations Office officials were not able to
                                identify the actual research and development costs that
                                apply to the contract clause. Subsequently, the officials
                                said that they interpreted the clause as applying to the entire
                                contract, rather than to research and development funds.
                                Such an interpretation increases the availability of



Page 2                                                                    Details of Finding
                          technology transfer funds by assessing non-research and
                          development activities for support.

Ensuring Program          Without adequate controls in place to ensure that royalty
Effectiveness             revenues are tracked and collected, the Department cannot
                          ensure an appropriate amount of technology transfer
                          revenues are reinvested in its research program. By not
                          ensuring that Bechtel obtained contracting officer approval
                          before exceeding the administrative limit on technology
                          transfer expenditures, the Department is unable to evaluate,
                          on a case-by-case basis, the value to be achieved by
                          spending additional funds for technology transfer and
                          commercialization activities. Without controls in place to
                          monitor expenditures in this regard, the Department is not
                          in a position to make such a determination.


RECOMMENDATIONS           We recommend that the Manager, Idaho Operations Office
                          improve controls over technology transfer and
                          commercialization program activities by:

                                1. Requiring the contractor to recognize and record
                                   accounts receivable in accordance with generally
                                   accepted accounting principles;

                                2. Requiring the contractor to implement appropriate
                                   internal controls over write-off of uncollectable
                                   accounts receivable, including Federal
                                   concurrence and adequate documentation
                                   supporting decisions to write-off accounts; and,

                                3. Ensuring that administrative limitations are not
                                   exceeded without contracting officer approval.


MANAGEMENT         The Idaho Operations Office concurred with all three
REACTION           recommendations. Specifically, the Manager plans to work with
                   the contractor to implement a process to record the fixed fee
                   licenses and other commercialization activities under a section of
                   the Royalty Financial Reports entitled "Fixed Fee and Other
                   Activities Due". Additionally, the Manager will improve controls
                   over technology transfer activities by requiring the contractor to
                   implement appropriate controls over the write-off of uncollectable
                   accounts receivable. Both of these corrective actions are to be
                   implemented by October 1, 2005.



Page 3                                         Recommendations and Comments
           Further, the Manager reviewed the contractual clauses governing
           the technology transfer program and determined that the allowable
           costs for technology transfer activities did not exceed the
           administrative limit. However, due to the changes in contract
           structure, the program manager and Contracting Officer agree that
           additional oversight emphasis is needed, and will implement
           corrective actions to ensure the administrative limit is not exceeded
           without Contracting Officer approval.


AUDITOR    Management's comments are responsive to the recommendations.
COMMENTS




Page 4                                  Recommendations and Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether the
              technology transfer and commercialization program at the Idaho
              National Laboratory was managed consistent with business-related
              contract requirements.


SCOPE         The audit was performed from August 2004 to June 2005 at the
              Idaho Operations Office and Bechtel BWXT Idaho, LLC in Idaho
              Falls, Idaho. The audit covered the technology transfer and
              commercialization program at the INL from FY 2000 through
              2004. It should be noted that as of February 1, 2005, the
              management and operating contract at the INL transitioned from
              Bechtel to Battelle Energy Alliance. Thus, Battelle is now
              responsible for the technology transfer and commercialization
              program.


METHODOLOGY   To accomplish the audit objective, we:
                 •    Obtained and reviewed the management and operating
                      contract for the Idaho National Laboratory;

                 •    Researched Federal and Departmental regulations;

                 •    Reviewed findings from prior audit reports regarding
                      technology transfer;

                 •    Reviewed cooperative research and development
                      agreements and licensing contracts;

                 •    Assessed internal controls and performance measures
                      established under the Government Performance and
                      Results Act of 1993; and,

                 •    Interviewed key personnel in the Idaho Operations Office
                      and the technology transfer and commercialization
                      program.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              Specifically, we tested controls with respect to the Department's
              oversight. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may
              have existed at the time of our audit. Also, we considered the


Page 5                                     Objective, Scope and Methodology
Appendix 1 (continued)

                    establishment of performance measures in accordance with the
                    Government Performance and Results Act of 1993, as they related
                    to the audit objective. No specific performance measures were
                    established for the technology transfer and commercialization
                    program. Finally, we did not rely on computer-processed data to
                    accomplish our audit objective.
                    An exit conference was held with Idaho Operations Office
                    personnel on June 7, 2005.




Page 6                                         Objective, Scope and Methodology
Appendix 2

                                 PRIOR AUDIT REPORTS



  •   Management Controls over Patent and Royalty Income at Ames Laboratory (OAS-M-05-
      05, May 2005) The audit disclosed that Ames had not adequately controlled and
      accounted for patent and royalty revenues, nor expended such funds to further research,
      technology transfer, and education. These issues occurred because the Department had
      not provided guidance regarding the extent to which its laboratories were permitted to
      rely on third-party entities to assume fiduciary responsibility for patent and royalty
      revenues. Furthermore, the Ames Site Office did not provided adequate oversight to
      ensure that Ames established a plan for the use of patent revenues in a manner consistent
      with contract terms. As a result, approximately $3.5 million generated by technology
      transfer is at greater risk of loss and of not being productively used.

  •   Audit of Verification of Cooperative Research and Development Agreement Partner
      Funds-In-Kind Contributions at Sandia National Laboratories (WR-B-95-01, December
      1994). The audit's objective was to determine whether the Department's current practices
      were adequate for verifying in-kind partner contributions for cooperative research and
      development agreements. The audit found that the partners had inappropriately shifted
      part of their cost share to the Government and that current practices were inadequate for
      verifying partner in-kind contributions. This occurred in part because the Department did
      not implement the prevention and detection controls necessary to ensure that partners met
      their cost sharing obligations.

  •   Report on Inspection of Selected Issues Regarding the Department's Enhanced
      Technology Transfer Program (DOE/IG-0353, July 1994). The inspection identified
      several issues, including a lack of uniform budget guidance; lack of objectives for the
      Department's Technology Transfer Program; incomplete budget and accounting
      documentation; and lack of performance measurements for a technology transfer
      assessment program. As a result, the Office of Inspector General made several
      recommendations including developing a process or system to relate budget to the
      objectives of the Technology Transfer Program.

  •   Technology Transfer: Several Factors Have Led to a Decline in Partnerships at DOE's
      Laboratories (GAO-02-465, April 2002). At the time of the audit, the Department's
      laboratories had substantially reduced the number of cooperative research and
      development agreement partnerships and technical assistance to small businesses.
      Instead, the laboratories increasingly transferred technology through agreements that
      were funded by a business or other nonfederal entity constraints. Further, by FY 2001,
      most of the 12 DOE laboratories did not provide technical assistance for small
      businesses, unless a business was willing to pay for the service.




Page 7                                                                     Prior Audit Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                    IG Report No. OAS-M-05-07

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
